CERTIFICATE OF COMPLIANCE
No. 20-1199
Students for Fair Admissions, Inc. v. President & Fellows of Harvard College
As required by Supreme Court Rule 33.1(h), I certify that the brief for
amici curiae Speech First contains 5,918 words, excluding the parts of the
brief that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on March 30, 2021

/s/ Stephen M. Duvernay
Stephen M. Duvernay
Counsel for Amicus Curiae

